<html>
<title> - SCIENTIFIC RESEARCH AT THE SMITHSONIAN</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                      SCIENTIFIC RESEARCH AT THE 

                    SMITHSONIAN--MORE THAN A MUSEUM
======================================================================


                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 14, 2014

                               __________

                           Serial No. 113-61

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
86-899                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           ROBIN KELLY, Illinois
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS COLLINS, New York
VACANCY
                                 ------                                

                Subcommittee on Research and Technology

                   HON. LARRY BUCSHON, Indiana, Chair
STEVEN M. PALAZZO, Mississippi       DANIEL LIPINSKI, Illinois
MO BROOKS, Alabama                   FEDERICA WILSON, Florida
RANDY HULTGREN, Illinois             ZOE LOFGREN, California
STEVE STOCKMAN, Texas                SCOTT PETERS, California
CYNTHIA LUMMIS, Wyoming              AMI BERA, California
DAVID SCHWEIKERT, Arizona            DEREK KILMER, Washington
THOMAS MASSIE, Kentucky              ELIZABETH ESTY, Connecticut
JIM BRIDENSTINE, Oklahoma            ROBIN KELLY, Illinois
CHRIS COLLINS, New York              EDDIE BERNICE JOHNSON, Texas
LAMAR S. SMITH, Texas

                            C O N T E N T S

                            January 14, 2013

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Larry Bucshon, Chairman, Subcommittee 
  on Research and Technology, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     6
    Written Statement............................................     6

Statement by Representative Daniel Lipinski, Ranking Minority 
  Member, Subcommittee on Research and Technology, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..     8
    Written Statement............................................     9

                               Witnesses:

Dr. G. Wayne Clough, Secretary, Smithsonian Institution
    Oral Statement...............................................    12
    Written Statement............................................    14

Dr. Eva Pell, Under Secretary for Science, Smithsonian 
  Institution
    Oral Statement...............................................    28
    Written Statement............................................    30

Dr. Kirk Johnson, Director, National Museum of Natural History
    Oral Statement...............................................    47
    Written Statement............................................    49

Discussion.......................................................    58

             Appendix I: Answers to Post-Hearing Questions

Dr. G. Wayne Clough, Secretary, Smithsonian Institution..........    70

Dr. Eva Pell, Under Secretary for Science, Smithsonian 
  Institution....................................................    71

Dr. Kirk Johnson, Director, National Museum of Natural History...    72

            Appendix II: Additional Material for the Record

Submitted statement of Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology....    74


       SCIENTIFIC RESEARCH AT THE SMITHSONIAN--MORE THAN A MUSEUM

                              ----------                              


                       TUESDAY, JANUARY 14, 2014

                  House of Representatives,
                    Subcommittee on Research and Technology
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 2:29 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Larry 
Bucshon [Chairman of the Subcommittee] presiding.

[GRAPHIC] [TIFF OMITTED] 86899.001

[GRAPHIC] [TIFF OMITTED] 86899.002

[GRAPHIC] [TIFF OMITTED] 86899.003

[GRAPHIC] [TIFF OMITTED] 86899.004

    Chairman Bucshon. All right. The Subcommittee on Research 
and Technology will come to order.
    Good afternoon, everyone. Welcome to today's hearing 
entitled ``Scientific Research at the Smithsonian.'' In front 
of you are packets containing the written testimony, 
biographies, and truth-in-testimony disclosures for today's 
witnesses. I now recognize myself for five minutes for an 
opening statement.
    Founded in 1846, the Smithsonian is the world's largest 
museum and research complex, consisting of 19 museums and 
galleries, the National Zoological Park, and nine research 
facilities. In addition, the Smithsonian Institution houses 137 
million objects--and probably increasing every day--artworks, 
and specimens. The Institution has been busy digitizing its 
records, with 8.45 million records currently available online. 
In 2013, 31 million people visited Smithsonian museums and 
there were over 102 million visits to its website.
    However, the Smithsonian Institution is more than a museum; 
it is home to nine research centers and numerous research 
programs, which range from astronomy to marine biodiversity and 
ecosystems of Florida to understanding tropical biodiversity. 
Today's hearing will focus on the world-class scientific 
research activities at the Smithsonian Institution.
    In 2013, the Smithsonian's Submillimeter Array peered 
through the galaxy to provide the first clear view of W49A, a 
stellar nursery where star formation takes place, revealing a 
giant star cluster in the making. In another finding, a team of 
Smithsonian scientists further explored overlooked preserved 
museum specimens. The journey that started at a museum in 
Chicago led to the cloud forests of Ecuador in the Northern 
Andes and back to the genetics labs in Washington, D.C., ending 
in the discovery of the olinguito, the first carnivorous mammal 
species discovered in the Americas in 35 years. This discovery 
was one of the top science stories of 2013. In other research, 
the first wild horse species was born from artificial 
insemination at the Smithsonian Conservation Biology Institute. 
These are a few of the research highlights being done that we 
will hear about during today's hearing.
    In its 168-year history, the Smithsonian has inspired 
millions of Americans, and also given us the opportunity to 
learn about our Nation's history, culture, and values. At the 
same time, it is important that the Smithsonian focus its 
resources on research that will maintain its world-class status 
and will allow its researchers to solve problems that are vital 
to the national interest.
    Our witnesses today will display and have displayed some of 
the important research activities that are ongoing at the 
Smithsonian and will provide a vision for future activities. I 
look forward to hearing from our distinguished witnesses and 
having a productive discussion.
    [The prepared statement of Mr. Bucshon follows:]

Prepared Statement of Subcommittee on Research and Technology Chairman 
                             Larry Bucshon

    Founded in 1846, the Smithsonian is the world's largest museum and 
research complex, consisting of 19 museums and galleries, the National 
Zoological Park, and nine research facilities. In addition, the 
Smithsonian Institution houses 137 million objects, artworks, and 
specimens. The Institution has been busy digitizing its records, with 
8.45 million records currently available online. In 2013, 31 million 
people visited Smithsonian museums and there were over 102 million 
visits to its website.
    However, the Smithsonian Institution is more than a museum; it is 
home to nine research centers and numerous research programs, which 
range from astronomy to marine biodiversity and ecosystems of Florida 
to understanding tropical biodiversity. Today's hearing will focus on 
the world-class scientific research activities at the Smithsonian 
Institution.
    In 2013, the Smithsonian's Submillimeter Array peered through the 
galaxy to provide the first clear view of W49A, a stellar nursery where 
star formation takes place, revealing a giant star cluster in the 
making. In another finding, a team of Smithsonian scientists further 
explored overlooked preserved museum specimens. The journey that 
started at a museum in Chicago led to the cloud forests of Ecuador in 
the Northern Andes and back to genetics labs in Washington, D.C., 
ending in the discovery of the olinguito--the first carnivorous mammal 
species discovered in the Americas in 35 years.
    This discovery was one of the top science stories of 2013. In other 
research, the first wild horse species was born from artificial 
insemination at the Smithsonian Conservation Biology Institute. These 
are a few highlights among the research being done that we will hear 
about during today's hearing.
    In its 168 year history, the Smithsonian has inspired millions of 
Americans, and also given us the opportunity to learn about our 
nation's history, culture and values. At the same time, it is important 
that the Smithsonian focus its resources on research that will maintain 
its world-class status and will allow its researchers to solve problems 
that are vital to the national interest.
    Our witnesses today will display some of the important research 
activities that are on-going at the Smithsonian, and will provide a 
vision for future activities. I look forward to hearing from our 
distinguished witnesses and having a productive discussion.
    Chairman Bucshon. With that, I will now recognize the 
Ranking Member, Mr. Lipinski from Illinois, for his opening 
statement.
    Mr. Lipinski. Thank you, Mr. Chairman. I want to thank the 
distinguished witnesses who will testify here today.
    Many of us remember school field trips and family outings 
to local museums, zoos, and aquaria, and you only have to visit 
the National Mall on any given weekend to see droves of young 
kids and families in line to see a range of Smithsonian 
exhibits. From the full skeleton of a Stegosaurus at the Museum 
of Natural History, to the command module of the Apollo 11 Moon 
landing at the Air and Space Museum, and a little further 
northwest, Bao Bao, the giant panda cub at the National Zoo who 
has gotten so much attention. I have to say, for not the 
Smithsonian so much, but going to museums and zoos back home 
were certainly important to me as a kid.
    So for young people, the Smithsonian, thousands of museums 
and other science centers around the country, find some of the 
earliest exposures they have to science and some of the things 
that really hook many of them into an interest in science.
    We heard a few years ago from the Chicago Zoological 
Society's Brookfield Zoo about their informal education 
programs and the important role they play in my own community. 
I am co-chair of the Congressional Zoo and Aquarium Caucus and 
have long been an advocate of the important role of museums, 
science centers, zoos, and aquaria, and informal science ed.
    This Committee held a hearing last June to hear more about 
the Administration's proposal for the Smithsonian to take on 
new leadership in federal efforts on informal STEM education. 
While the Smithsonian has an impressive track record in 
providing informal education, it doesn't do everything that 
other science agencies now do. For example, unlike NSF, the 
Smithsonian does not make grants to external organizations 
including science centers and museums across the country. I am 
interested in hearing how the Smithsonian in its proposed new 
role would strengthen the partnerships it has with its 184 
affiliate museums and how these local organizations and 
communities they serve will continue to benefit from their 
long-standing partnership with the federal government.
    In addition to the opportunities it provides as a 
collection of museums and centers of science education, the 
Smithsonian is also a leading research institution, as Chairman 
Bucshon mentioned. The scientists at the Smithsonian's research 
centers conduct research on many topics of today's most 
interesting and important science from species preservation to 
climate change.
    The Smithsonian collections also allow great science to 
take place and allow millions of visitors a firsthand glimpse 
of our national history. However, if these collections are not 
preserved, all this work could be lost. This Committee included 
a provision in the 2010 America COMPETES reauthorization 
requiring OSTP to develop consistent policies for the 
management and disposal of federal scientific collections and 
ensure development of an online clearinghouse for information 
on federal scientific collections. The Smithsonian is a natural 
leader among federal agencies in this effort along with the 
U.S. Department of Agriculture with a significant collection of 
its own. I am interested in hearing from the panel what means 
are being taken to preserve these artifacts and digitize them 
so that they can be studied and viewed for generations to come.
    And finally, the way the Smithsonian is funded is somewhat 
unique since it receives around $800 million annually in 
federal appropriations in addition to its many sources of 
private funds. But as everyone knows, we have been in a reduced 
budget environment, which the Smithsonian has not escaped. The 
American people also have slimmer checkbooks, and as such, may 
not be donating in the amounts that they have in the past. I 
would be very interested in hearing how the Smithsonian is 
prioritizing their research and what challenges they have faced 
during the last few years of budget cutting.
    Again, I want to thank Chairman Bucshon for calling this 
hearing and the witnesses as well for being here. I look 
forward to your testimony and a productive discussion. With 
that, I yield back.
    [The prepared statement of Mr. Lipinski follows:]

     Prepared Statement of Subcommittee on Research and Technology
                Ranking Minority Member Daniel Lipinski

    Thank you Mr. Chairman for holding this hearing, and thank you to 
the distinguished witnesses who are testifying.
    Many of us remember school field trips and family outings to local 
museums, zoos, and aquaria, and you only have to visit the National 
Mall on any given weekend to see droves of young kids and families in 
line to see a range of Smithsonian exhibits; from the full skeleton of 
a stegosaurus at the Museum of Natural History, to the command module 
of the Apollo 11 Moon landing at the Air and Space Museum, and--a 
little further northwest--Bao Bao, the giant panda cub at the National 
Zoo. For many young people, the Smithsonian and the thousands of 
museums and other science centers around the country provide some of 
the earliest exposures they have to science. We heard a few years ago 
from the Chicago Zoological Society's Brookfield Zoo about their 
informal education programs and the important role they play in my own 
community. I am a co-chair of the Congressional Zoo and Aquarium Caucus 
and have long been an advocate of the important role of museums, 
science centers, zoos, and aquaria in informal science education.
    This Committee held a hearing last June to hear more about the 
Administration's proposal for the Smithsonian to take on new leadership 
in federal efforts on informal STEM education. While the Smithsonian 
has an impressive track record in providing informal education, it 
doesn't do everything that other science agencies now do. For example, 
unlike NSF, the Smithsonian does not make grants to external 
organizations, including science centers and museums across the 
country. I am interested in hearing how the Smithsonian, in its 
proposed new role, would strengthen the partnerships it has with its 
184 affiliate museums and how these local organizations and the 
communities they serve will continue to benefit from their long-
standing partnership with the federal government.
    In addition to the opportunities it provides as a collection of 
museums and centers of science education, the Smithsonian is also a 
leading research institution. The scientists at the Smithsonian's 
research centers conduct research on many of today's most interesting 
and important scientific topics, from species preservation to climate 
change.
    Smithsonian collections also allow great science to take place and 
allow its millions of visitors a first-hand glimpse of our natural 
history. However, if these collections are not preserved, all of this 
work could be lost. This Committee included a provision in the 2010 
America COMPETES Reauthorization requiring OSTP to develop consistent 
policies for the management and disposal of federal scientific 
collections and ensure development of an online clearinghouse for 
information on federal scientific collections. The Smithsonian is a 
natural leader among federal agencies in this effort, along with the 
U.S. Department of Agriculture which has significantcollections of its 
own. I am interested in hearing from the panel what means are being 
taken to preserve these artifacts and digitize them so that they can be 
studied and viewed for generations to come.
    Finally, the way the Smithsonian is funded is somewhat unique since 
it receives around $800 million annually in federal appropriations in 
addition to its many sources of private funds. But as everyone knows, 
we've been in a reduced budget environment which the Smithsonian has 
not escaped. The American people also have slimmer checkbooks, and as 
such, may not be donating in the amounts that they have in the past. I 
would be very interested in hearing how the Smithsonian is prioritizing 
their research and what challenges they have faced during the last few 
years of budget cutting.
    Again, I want to thank Chairman Bucshon for calling this hearing, 
and the witnesses as well for being here. I look forward to your 
testimony and a productive discussion.And with that I yield back.
    Chairman Bucshon. Thank you very much.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    Chairman Bucshon. At this time I would like to introduce 
our witnesses. Our first witness today is Dr. G. Wayne Clough, 
and he currently is the 12th Secretary of the Smithsonian 
Institution. Since he began as Secretary in July 2008, Dr. 
Clough has overseen several major openings at the Smithsonian, 
including the reopening of the National Museum of American 
History, the David H. Koch Hall of Human Origins and Sant Ocean 
Hall at the National Museum of Natural History. Before his 
appointment to the Smithsonian, Dr. Clough was President of the 
Georgia Institute of Technology for 14 years. He received his 
bachelor's and master's degree in civil engineering from 
Georgia Tech and a doctorate in civil engineering from the 
University of California at Berkeley. Dr. Clough will be 
retiring later this year as the Secretary of the Smithsonian. I 
would like to take this opportunity to thank you for your hard 
work these past six years and wish you well in future 
endeavors.
    Our second witness today is Dr. Eva Pell. As Under 
Secretary for Science at the Smithsonian Institution, Dr. Pell 
directly overseas the operations of several museums, including 
the National Museum Of Natural History, the National Air and 
Space Museum, the National Zoo and its Conservation and 
Research Center in Front Royal, Virginia, and the Smithsonian 
Astrophysical Observatory in Cambridge, Massachusetts. Do you 
have time for all that?
    Dr. Pell was a Professor in the Department of Plant 
Pathology at Penn State University for more than 35 years. In 
her role as Senior Vice President for Research at the 
university, Dr. Pell spearheaded the development of cross 
disciplinary institutes for life sciences, materials, energy, 
and environment, social sciences, cyber science, and the arts 
and humanities. Dr. Pell earned her BS in biology from the City 
College of the City of New York and a Ph.D. in plant biology 
from Rutgers. Thank you.
    Our third witness today is Dr. Kirk Johnson, who is 
currently the Sant Director of the National Museum of Natural 
History and was appointed to this position in October of 2012. 
In his previous position as Chief Curator at the Denver Museum 
of Nature and Science, Dr. Johnson oversaw a 70-person Research 
and Collections Division. From 2001 to 2006 Dr. Johnson was the 
Chair of the museum's Department of Earth Sciences. Between 
1991 and 1995 he was one of the two scientists who led the 
development of Prehistoric Journey, the museum's permanent 
exhibition about the history of life on Earth. From 1989 to 
1990 he was a postdoctoral research associate in the Department 
of Botany at the University of Adelaide in Australia. He was a 
marine geologist with the U.S. Geological Survey in California 
from 1982 to 1983 and has been a research associate at the 
Burke Museum of Natural History and Culture in Seattle since 
1991.
    Thanks again to all our witnesses for being here this 
afternoon. As our witnesses should know, spoken testimony is 
limited to five minutes each, after which the Members of the 
Committee will have five minutes each to ask questions.
    I now recognize Secretary Clough for five minutes to 
present his testimony. Welcome, sir.

               TESTIMONY OF DR. G. WAYNE CLOUGH,

               SECRETARY, SMITHSONIAN INSTITUTION

    Dr. Clough. Thank you, Mr. Chairman, and thank you for this 
opportunity to testify.
    I was last here in 2010 and at that time we were in the 
early stages of implementing our new strategic plan. Since 
then, we have made considerable progress towards all of our 
goals and much of this relates to our science museums and our 
research centers.
    Many of you just saw compelling evidence of that progress 
if you were able to visit with our staff members here. I am 
extremely proud of our 500 scientists at the Smithsonian and 
what they do to help us understand our world, our universe, and 
enable us to create a sustainable future for future 
generations. The scientists you just met demonstrate the 
passion all of our employees at the Smithsonian have, and that 
is why for the past four years we have been named as one of the 
best places to work in the federal government.
    The Smithsonian, as was mentioned, is a public-private 
partnership. Roughly 60 percent of our funding comes from 
federal appropriations and 40 percent from other sources. We 
have worked hard over the past five years to enhance our 
private funding and use it in a way that best complements the 
federal funding that we receive. With our strategic plan as a 
guide, we have attracted increased support from donors and 
funding agencies to make progress we would not have imagined a 
decade ago.
    Last year, 31 million visits were made to our museums, the 
best attendance we have had in a decade. For the millions who 
could not visit, we are doing more than ever to reach them 
through our traveling exhibition service, our 184 affiliate 
museums, and digital technology. More than 140 million unique 
visitors used our websites last year. We are now delivering 
education materials geared to state standards to all 50 States. 
This is a passion of mine because I am an educator. I was 
raised in a family of modest means in a small rural town of 
Douglas, Georgia. I didn't experience the Smithsonian until I 
went to college. Our strategic plan documents our commitment to 
ensure people in any part of our Nation can access our 
resources, and we are working hard to deliver on that promise.
    As noted, we were founded in 1846, and the Smithsonian is 
the world's largest museum and research complex with 19 museums 
and galleries, the National Zoo, nine research centers, and 20 
libraries and archives. As noted, we have 137 million objects 
in our collections and 127 million of these are scientific 
objects, some of which you have seen here. We are active in 
more than 130 countries through our research and education 
efforts. Last year, we had more than 3.8 million social media 
followers on Facebook and Twitter. The Smithsonian Channel now 
reaches 30 million people and families and households, up from 
6 million five years ago.
    Under our strategic plan our activities are organized to 
focus on four grand challenges, two of which are focused on 
science. The first is understanding and sustaining a biodiverse 
planet. The second is unlocking the mysteries of our universe. 
The plan also calls, one, for greater emphasis on cross 
disciplinary research and collaboration and cooperation with 
other science-based federal agencies, universities, nonprofits, 
and industry; two, increase science-based educational 
offerings; and three, improved attention to care of 
collections.
    Our collaborative and cross disciplinary approach is 
exemplified by something we call the Forest Global Earth 
Observatory, a network of more than 50 sites around the world 
where long-term standardized observations of forest changes are 
made. The data are organized and stored digitally so all 
scientists around the world and teachers and students can use 
the information. More than 20 countries, nine U.S. 
universities, and the U.S. Forest Service participate with us 
in this effort.
    And thanks to a generous donor, we have recently launched 
the Tennenbaum Marine Observatories Network, which will perform 
a similar monitoring task to the forest effort in our coastal 
waters. As the partnership expands, many other universities and 
science agencies will join our initiative. Our scientific 
research forms the basis for educational resources offered in 
digital online lesson plans. We also offer direct assistance to 
school districts through the Smithsonian Science Education 
Center. For 28 years, the center's innovative STEM program has 
been improving the K-12 science education in our nation, and in 
2011, it won a highly competitive i3 innovation grant from the 
U.S. Department of Education to work with school districts in 
New Mexico, Texas, and North Carolina serving approximately 
90,000 students, most of whom fall in the Title I 
classification. Assessments of this work have shown it to be 
extremely successful and more will come from this work since we 
are expanding it to workforce education.
    As I look back over the past five years, I am proud that 
our scientific efforts have made a difference and we are 
positioned to do even more. As an educator, I am also proud of 
the fact we have increased participation of interns and 
fellows. Last year, we had more than 1,300 interns and 700 
fellows working at the Smithsonian. And though we don't offer 
degrees, we help educate the scientific workforce of the 
future. Of course we also continue in what we do best, and that 
is inspire young people to learn more about science and our 
world.
    You may have heard of high school junior Jack Andraka from 
Maryland who devised an inexpensive and quick test for 
pancreatic cancer after his uncle died of that disease. For 
that, in 2012 we presented him with our American Ingenuity 
Award for youth achievement. As a young boy, he was inspired by 
coming to the National History Museum. That is the power of 
science, to change the world with ideas and make it a better 
place and that is what we do best at Smithsonian.
    [The prepared statement of Dr. Clough follows:]
    [GRAPHIC] [TIFF OMITTED] 86899.009
    
    [GRAPHIC] [TIFF OMITTED] 86899.010
    
    [GRAPHIC] [TIFF OMITTED] 86899.011
    
    [GRAPHIC] [TIFF OMITTED] 86899.012
    
    [GRAPHIC] [TIFF OMITTED] 86899.013
    
    [GRAPHIC] [TIFF OMITTED] 86899.014
    
    [GRAPHIC] [TIFF OMITTED] 86899.015
    
    [GRAPHIC] [TIFF OMITTED] 86899.016
    
    [GRAPHIC] [TIFF OMITTED] 86899.017
    
    [GRAPHIC] [TIFF OMITTED] 86899.018
    
    [GRAPHIC] [TIFF OMITTED] 86899.019
    
    [GRAPHIC] [TIFF OMITTED] 86899.020
    
    [GRAPHIC] [TIFF OMITTED] 86899.021
    
    [GRAPHIC] [TIFF OMITTED] 86899.022
    
    Chairman Bucshon. Thank you very much.
    I have subscribed to Smithsonian Magazine, by the way, for 
many, many years. I would recommend it to everyone. It is a 
great magazine.
    Dr. Clough. Thank you.
    Chairman Bucshon. Now, I recognize Under Secretary Pell for 
five minutes for her testimony.

                   TESTIMONY OF DR. EVA PELL,

                  UNDER SECRETARY FOR SCIENCE,

                    SMITHSONIAN INSTITUTION

    Dr. Pell. Thank you for the opportunity to testify.
    To most people, the Smithsonian conjures a public place on 
the National Mall. We are a remarkable tourist destination, but 
behind that is a world-class research infrastructure making a 
difference in the lives of Americans.
    The Smithsonian conducts scientific research through a 
blend of remarkable collections, field sites and observatories 
on Earth and in space. These assets allow our scientists and 
collaborators to address significant questions from 
understanding the origin of the universe to explaining losses 
in biological diversity around the globe.
    To demonstrate the rich depth and breadth of Smithsonian 
science through collections research, exploration, and 
educational outreach, I would like to take you on a journey, a 
journey of flight. We are cleared for takeoff from the Hill, so 
let's take a short hop down the Mall. We land at our National 
Air and Space Museum where our future pilots, engineers, and 
astronauts look at the museum's impressive collections 
encompassing 60,000 objects ranging in size from rockets to 
space helmets to microchips. These youngsters attend lectures, 
family events, and educational programs that often feature 
pioneers in aviation and space, including pilots, astronauts, 
and scientists. Each day, explainers bring the science of 
flight alive in the How Things Fly Gallery.
    We continue our journey now and explore the real dangers 
that airplanes face. You met our scientist Dr. Carla Dove, who 
is instrumental in keeping you and millions of pilots and 
passengers safe in flight on both commercial and military 
flights. Dr. Dove is an ornithologist and a forensic expert who 
identifies the birds that can cause airplane crashes like that 
of the commercial flight in the Hudson River in January 2009.
    Carla runs the Smithsonian's feather identification lab at 
the National Museum of Natural History. The aviation industry 
relies on Carla and her lab to identify the birds involved in 
thousands of collisions with planes every year. The Smithsonian 
has interagency agreements with the Federal Aviation 
Administration, the U.S. Air Force, and the Navy. Carla's 
identifications help scientists and engineers take action to 
avoid a crash through activities like altering an airplane's 
flight path or implementing bird habitat management schemes at 
airports. Carla receives more than 8,000 samples per year, 
called ``snarge,'' to identify birds via feather identification 
or DNA analysis. We can help because of our unique 
comprehensive collection and the specialized training of our 
staff. Thanks to Carla, we are safe to continue our 
metaphorical flight.
    Now, we are going to go and visit some continents: Asia, 
Africa, and South America. The question is, when we go home, 
how do we know we are going to be alone? What if a virus, a 
rodent, or an insect is hitchhiking a ride on our plane? We or 
others we come into contact with may end up getting sick when 
we get home.
    The diseases can be caused by pathogens that are carried by 
animals and insects causing zoonotic diseases that are spread 
between animals and humans. You have heard of SARS, malaria, 
and West Nile virus infection. In fact, about 75 percent of 
recently emerging infectious diseases affecting humans 
originally infected animals. Because of extensive international 
air travel, these diseases can travel undetected very quickly, 
posing serious public health and economic threats.
    To respond to these diseases, the Smithsonian is a partner 
with USAID on the PREDICT project, charged with predicting and 
preventing such problems. Our scientists help build pathology 
skills so that scientists in the developing world can help 
identify the cause of animal deaths, both wildlife and 
agricultural, often an important indicator of disease threats 
that could jump to humans.
    In November of last year, scientists in the Middle East 
found a disease caused Middle East Respiratory Syndrome in 
camels in Qatar. The SARS-like coronavirus, which emerged last 
year, has killed 40 percent of the 170 people to whom this 
virus was transmitted from camels. Pinpointing camels as the 
disease required a range of tests, including DNA sampling and 
antibody testing. The Smithsonian was able to help by providing 
a baseline comparison for these samples through use of our 
collections, which include 30 years of banked serum from more 
than 100 species that we have at the National Zoo. The Qatari 
Health Counsel, armed with this information, was able to issue 
warnings for vulnerable populations to avoid close animal 
contact. Our scientists and colleagues have nipped this problem 
in the bud before it walked onto a plane.
    Our brief journey has come to an end. We can land safely 
now. But the possibilities for future exploration for you and 
your constituents are endless at the Smithsonian. Please come 
visit our collections, our field sites, and our observatories. 
Meet more of our dedicated scientists, and I can promise you an 
incredible journey you will not forget. Thank you.
    [The prepared statement of Dr. Pell follows:]
    [GRAPHIC] [TIFF OMITTED] 86899.023
    
    [GRAPHIC] [TIFF OMITTED] 86899.024
    
    [GRAPHIC] [TIFF OMITTED] 86899.025
    
    [GRAPHIC] [TIFF OMITTED] 86899.026
    
    [GRAPHIC] [TIFF OMITTED] 86899.027
    
    [GRAPHIC] [TIFF OMITTED] 86899.028
    
    [GRAPHIC] [TIFF OMITTED] 86899.029
    
    [GRAPHIC] [TIFF OMITTED] 86899.030
    
    [GRAPHIC] [TIFF OMITTED] 86899.031
    
    [GRAPHIC] [TIFF OMITTED] 86899.032
    
    [GRAPHIC] [TIFF OMITTED] 86899.033
    
    [GRAPHIC] [TIFF OMITTED] 86899.034
    
    [GRAPHIC] [TIFF OMITTED] 86899.035
    
    [GRAPHIC] [TIFF OMITTED] 86899.036
    
    [GRAPHIC] [TIFF OMITTED] 86899.037
    
    [GRAPHIC] [TIFF OMITTED] 86899.038
    
    [GRAPHIC] [TIFF OMITTED] 86899.039
    
    Chairman Bucshon. Thank you very much. I was interested in 
the word snarge. It is one of those words that kind of sounds 
like what it is, kind of, you know--I now recognize Dr. Johnson 
for five minutes to present his testimony.

            TESTIMONY OF DR. KIRK JOHNSON, DIRECTOR,

               NATIONAL MUSEUM OF NATURAL HISTORY

    Dr. Johnson. Thank you, Mr. Chairman.
    I am going to talk today about the research, the 
collections, and the public impact of just one of the 
Smithsonian museums, the National Museum of Natural History. 
This is the largest of the museums. Not only is it the largest 
Smithsonian Museum, but it is also the largest natural history 
museum in the world by far. At the Natural History Museum, we 
really do only three things. We do basic scientific research, 
we guard and use the Nation's science collections, and we 
inspire and educate our public who knows they learn best when 
they are having a social and fun time with their families.
    We have more than 7 million visitors each year at the 
National Museum of Natural History, which is an amazing number. 
It is the most-visited museum in the world. And 84 percent of 
our visitors come from out of town, which means they are unique 
visitors, which means every year we get a different 84 percent 
of 7 million which means in a decade we might see as many as 60 
million people in that one building on the National Mall. That 
makes us the premier science education space in the world and 
it means that something like 20 percent of the American 
population will walk into that building every decade. So it is 
a phenomenal asset for communicating about the natural world.
    We also have more than 90 percent of the Smithsonian's 
collections with 127 million objects, specimens, and artifacts. 
And this is where we keep the objects that we treasure about 
the world and study those objects. We have 11,000 scientists 
who visit us each year to study those objects here in our 
facility in Suitland, Maryland. We are the home to the iconic 
Hope Diamond, and we are the real Jurassic Park.
    With more than 200 scientists, we have the largest museum 
science staff in the world, and these are scientists who have 
three primary areas of expertise: the study of Earth and 
similar planets, the study of the diversity of life on Earth, 
and the study of human diversity and cultural change. They 
publish more than 600 scientific books and papers every year 
often describing new species and making discoveries about 
plants, animals, and organisms around the world.
    Also embedded in the Natural History Museum, we have 
scientists from the U.S. Department of Agriculture, from the 
U.S. Geological Survey, from the Department of Defense, and 
from NOAA's National Marine Fisheries Service. They are there 
because our collections allow them to do the work they need to 
do, things like preventing our troops from getting malaria, 
things like preventing invasive pests from crossing our 
borders, and understanding the vulnerabilities of our fishery 
stocks.
    Today, we had a number of scientists here. I will just 
mention two of them. Dr. Tim McCoy is the Chair of the Mineral 
Science Department. He studies meteorites. And if you ask him 
why he studies meteorites he will say, well, I want to 
understand the formation of the solar system, which seems a 
little bit ethereal to a lot of us. It is a very important 
topic but you have to think back in February, just a year ago 
in Russia when the Chelyabinsk meteorite exploded over Russia, 
there was a meteorite the size of a bus traveling at five miles 
a second that, depending on how it came in, could cause a 
tremendous amount of damage. We know that a six-mile-diameter 
asteroid is probably what caused the extinction of dinosaurs 
and most life on Earth 66 million years ago. So these things 
are real and they are in our time frame and we need to 
understand them, and that happens at a place where we have the 
world's collections of meteorites.
    You saw the work of Dr. Kris Helgen, who is a mammalogist, 
who at a very young age has discovered dozens of new species of 
previously undescribed mammals by looking at collections and 
visiting natural habitats around the world.
    These experts represent a dedicated staff but they are also 
the inspiration for what we present to the public as our 
various exhibits.
    In this last year, we partnered with the National Human 
Genome Research Institute at the National Institutes of Health 
to put together an exhibit called Genome: Unlocking Life's 
Code. This is in celebration of the 60th anniversary of Watson 
and Crick's discovery of the double helix structure of DNA and 
the 10th anniversary of the discovery of the decoding of the 
human genome. And this is one of these very rapidly evolving 
fields in science and medicine where we are all real interested 
in what is going to happen, and a really good place to get 
started learning about it is to come down and see the exhibit 
on the Mall.
    In December we opened a 10,000 square-foot exhibit called 
Q?rius, and this is a place where we have turned the museum 
inside out and made our collections, our scientists, and our 
scientific equipment available to primarily teenagers because 
we know that people will study things if they are very 
interested in them. And we find that museums are a great way to 
catalyze people's curiosity.
    We will be opening in a few years a complete renovation of 
the Nation's Fossil Halls, which originally opened in 1911 as 
the Hall Of Extinct Monsters. In the last century we have 
learned so much about the history of the Earth and the story of 
dinosaurs that we are going to be renovating that entire space. 
And later this spring we will be bringing to Washington, D.C., 
a complete real Tyrannosaurus rex in partnership with the U.S. 
Army Corps of Engineers and the Museum of the Rockies. It will 
be the first real Tyrannosaurus rex in the Nation, the Nation's 
T-rex in Washington, D.C., and we will use that to launch our 
renovation, which will open in 2019.
    So as you can see, the Natural History Museum is a 
curiously successful blend of three very different things: very 
serious science, our treasured objects, and a deeply engaged 
public that is learning while it is having fun. Thank you very 
much.
    [The prepared statement of Dr. Johnson follows:]
    [GRAPHIC] [TIFF OMITTED] 86899.040
    
    [GRAPHIC] [TIFF OMITTED] 86899.041
    
    [GRAPHIC] [TIFF OMITTED] 86899.042
    
    [GRAPHIC] [TIFF OMITTED] 86899.043
    
    [GRAPHIC] [TIFF OMITTED] 86899.044
    
    [GRAPHIC] [TIFF OMITTED] 86899.045
    
    [GRAPHIC] [TIFF OMITTED] 86899.046
    
    [GRAPHIC] [TIFF OMITTED] 86899.047
    
    [GRAPHIC] [TIFF OMITTED] 86899.048
    
    Chairman Bucshon. Thank you for your testimony. I have also 
watched movies about you guys such as ``Night at the Museum.''
    I would like to remind the Members that the Committee rules 
limit questioning to five minutes. At this point I will 
recognize myself for five minutes for questioning. To all 
witnesses, with regard to scientific research, what does the 
Smithsonian Institution bring to the table that cannot be 
achieved by other federal agencies like the National Science 
Foundation or NASA? Can you describe things that might be 
unique to the Smithsonian?
    Dr. Clough. I will get started. The agencies obviously have 
different missions, and I served on the National Science Board 
and was a researcher with NSF funding for many years. We don't 
fund other groups. We do work with other groups and our 
collections is one way we would be different from the others. 
We have the largest scientific collection in the world as Kirk 
described, and it works a little bit like a national lab the 
way I see it because it serves as a tremendous research base 
for all the other scientists to come in and use the collection. 
We are the caretakers in that way but we use it for our own 
research as well.
    And the interesting thing is collections have become far 
more important to us in our research endeavors because of 
genomics and some of the new scientific instruments and tools 
that we have. So this is sort of a new day if you will for our 
collection. So our collection is one of those things.
    A second way is I mentioned the Forest Global Earth 
Observatory and the new marine observatories, which Dr. Pell 
really has made happen. Those are long-term projects. The 
Smithsonian is very good at collaborating, bringing together 
teams, and then carrying out work that you can sustain for long 
periods of time.
    We are trusted around the world. I mentioned ForestGEO has 
over 20 countries involved in it. These are countries that want 
to share information with us. They trust us as a source of 
reliable information and they trust us with the data. So I 
think that the ability to do long-term research, the 
collections, and the unique capabilities of our scientists are 
some of the things. My colleagues might want to comment 
otherwise.
    Chairman Bucshon. Dr. Pell?
    Dr. Pell. Well, I would just build on what Wayne talked 
about because coming from a university where I worked most of 
my career, you are very much confined as a faculty researcher 
by the term of your grant. Having the federal appropriation 
that allows us to establish programs and know will be there in 
five years, in ten years, in 50 years in 100 years is a huge 
difference. And as a result, many faculty send their graduate 
students here and post-docs come here for that experience to 
work in an environment that has that kind of longevity.
    Dr. Johnson. And I will just agree with what both of my 
colleagues said, but just add the fact that we do very basic 
research on what is on the planet--the life, the rocks, the 
minerals--and that is a very baseline sort of research that 
underpins so much more of the innovative and applied research 
that is out there.
    Chairman Bucshon. And, Dr. Pell, a question about big data. 
Obviously, we are talking about digitalizing everything and we 
talk about that a lot. Specifically, how is the Smithsonian 
handling the issues of data access, data management, storage, 
duration, cost control? Because obviously--and Dr. Clough can 
answer this, too--that is advancing quickly. And how is the 
Smithsonian trying to address that?
    Dr. Pell. That is a huge question and I want Kirk to weigh 
in as well because we have 137 million objects and we have a 
mandate to make what we have available to the world. And the 
best way to do that is through digitization, and so we are on a 
march to digitize our collections and we are also very much 
interested in open access at every opportunity that we have. 
This past year, we had three presidential fellows who came for 
the very purpose of trying to help us figure out how to do our 
digitization more rapidly than we had been doing it and we have 
been taking advantage of crowdsourcing.
    And an example I find very intriguing is, as a plant 
biologist myself, biologists go out in the field and they have 
field notebooks and they write all this information down, and 
what you really want to be able to do ultimately is to access 
those digitally, but you would also love to be able to search 
them digitally, which is different than just making PDF images 
of things. And we have started this transcription program for 
field notebooks and put it out on the web and said anybody 
interested in--you can bring it up online but it needs to get--
it is handwritten and it needs to get digitized. It is 
remarkable. Am I remembering 1,100 people? Is that the right 
number of people--from all over have been inputting these data 
and we have been verifying it and we see ourselves doing more 
and more of that.
    Dr. Clough. I would make one other quick comment. We do 
deal with the big data and we have a big data challenge. The 
Smithsonian Astrophysical Observatory is awash in data because 
they are actively observing the heavens from multiple points of 
view and retrieving enormous amounts of data. And these we 
think of as images but it is actually digital information.
    The genomics initiatives we have underway are going to 
generate an additional wave of data. So with Dr. Pell's help, 
we have been having discussions with Oak Ridge National 
Laboratory, Department of Energy. They are very interested in 
what we are doing and obviously they have greater capacity in 
terms of handling big data than we do and we look to partner 
with them in the future. They did say they thought we had very 
interesting problems and I thought that was a compliment.
    Chairman Bucshon. It is. I now recognize the Ranking 
Member, Mr. Lipinski, for five minutes.
    Mr. Lipinski. Thank you. I want to go back to something I 
talked about in my opening statement is STEM education and 
informal science education. I know a lot of my interest in 
science came in part from visits to great museums in Chicago 
like the Museum of Science and Industry and going to Brookfield 
Zoo. And in fact research has shown that as much as 80 percent 
of science learning occurs in informal environments like these.
    I want to ask Dr. Johnson, putting on your hat as a former 
chief curator and vice president of the Denver Museum of Nature 
and Science, can you talk about the challenges faced by museums 
and science centers across the Nation in terms of availability 
of funding for developing and maintaining exhibits and 
educational opportunities for youth and the public in the 
communities that they serve, and also talk about how the 
Smithsonian can be helpful in that regard.
    Dr. Johnson. That is a very interesting topic. We do know 
that something like 95 million people a year go to science and 
technology centers, and it is a very pleasant way to learn very 
important things. There has been a trend in the last several 
decades for there to be fewer and fewer scientists at science 
centers, and as a result, the content isn't necessarily always 
there. So one of the things the Smithsonian can and is doing is 
helping to supply science-based content to the museums around 
the country because it turns out that it is difficult at a 
certain scale to maintain collections and scientists and still 
run a viable standalone science center. And what we have seen 
in many cities across the Nation in the last few decades is the 
decrease of the health of science in collections at natural 
history museums and the growth of science centers, which don't 
have to bear the costs of maintaining collections and 
scientific researchers.
    So this is where being the mothership of the museums allows 
us to share our resources quite well. We have a product called 
the Encyclopedia of Life, which is a website that we are 
building to host literally a page for every species on the 
planet. And we presently are at 1.34 million pages towards a 
target of 1.9. So ultimately, I think that the popularity of 
museums remains high. Funding is challenging, but most of the 
museums in the country and local markets where the markets 
realize the value to the education of their youth and families 
and it is very much my goal as a director of this museum to use 
the Smithsonian's Natural History Museum to improve the health 
of natural history museums and science centers across the 
country. And we are in contact with the Association of Science 
and Technology Centers to think about how we can bring science 
back into science centers and support this national endeavor.
    Dr. Clough. I will comment on that. This is a very 
interesting question because at one time you could think of a 
formal track and an informal track and they did their separate 
things. I believe that the informal track has shrunk because of 
the need to meet state standards and so forth, and as a result, 
there is a gap there for us to fill and that the Smithsonian 
and other science centers are moving much more closely into the 
formal education sphere. And we can do that effectively through 
programs like digital badging where we can give youngsters 
credentials for completing exercises and proving competency if 
you will. And so we have about 100 different digital badges now 
that we offer in different programs that help teachers. We have 
2,000 lesson plans available for free to teachers.
    Now, in addition to that sort of digital approach, we have 
a boots-on-the-ground approach in the Smithsonian Science 
Education Center. I mentioned we are working in three States 
primarily with Title I students where we work with principals 
and we work with teachers. We have 600 teachers a year to help 
them get comfortable in teaching science. We give them 
curriculum materials. We help the students learn, and we work 
with the communities to support their schools and to transition 
through leadership changes with superintendents. So we believe 
we need to look at it not just from the point of view digital 
delivery but also boots-on-the-ground and hard-core being in 
that space. We are just starting up a big program in Denver in 
the same way.
    Mr. Lipinski. In the little time I have left I wanted to go 
a little more into the issue of the provision in 2010 COMPETES 
reauthorization that required OSTP to develop consistent 
policies for the management and disposal of federal scientific 
collections and develop an online clearinghouse for information 
on federal scientific collections. You talked a little bit 
about this already, but how are you working to achieve this and 
what kind of collaborations do you have with federal agencies 
with large collections? You talked about general questions with 
big data and where to store this, but can you provide further 
comments on how this process is coming along?
    Dr. Pell. Well, I would want to mention that we co-chair 
with the USDA the interagency working group on scientific 
collections because I think across the government we are 
recognized as probably having the largest collection, so we are 
working with them on all of the standards. And Scott Miller is 
sitting behind me and is the Deputy Under Secretary for 
Collections and he is the co-chair of that committee. I would 
also say that we work very closely every day with a number of 
the agencies that have large collections. USDA, Park Service, 
and Department of Interior all have collections and staff that 
live at the National Museum of Natural History, so there is a 
very close collaboration on a daily basis as well.
    Mr. Lipinski. All right. I see my time is up. I will yield 
back. Thank you.
    Chairman Bucshon. Thank you very much.
    I now recognize Mr. Massie, five minutes.
    Mr. Massie. Thank you, Mr. Chairman.
    I see some nice it looks like 3-D models up there that come 
from some of the artifacts that were scanned I presume. One 
question that I have is do you allow public use of all of your 
3-D models? Can people who have a 3-D printer go and get these 
models and what sort of efforts do you have to promote those 3-
D models if so?
    Dr. Clough. Well, we think 3-D models have a great future, 
3-D imaging and 3-D files if you will, because it gives people 
access to our collections in ways they never had before. It may 
not be exactly the real thing but it sure looks like the real 
thing in many cases. So we have developed a three-dimensional 
imaging group and we think it is the leading group in the 
world. We just had an international conference where hundreds 
of people came to the conference. We rolled out, in essence, 
our first collection of images that are fully 3-D ranging all 
the way from a ship, the Gunboat Philadelphia in American 
history, down to a bee to show the possible--as well as--I 
guess the big one was the--we had a galaxy collapsing also that 
we imaged. But the idea was to illustrate the range of things 
we can do. That is accessible on our website. It is 20 objects. 
You can download the files themselves. You can manipulate them 
when you are there. You can look at them in different colors. 
And what we learned from that exercise was many scholars are 
astounded because they can see things on objects they have 
never seen before. These can be downloaded by a teacher in 
schools in your community if they have access to a 3D printer. 
Some of these printers get to be very cheap now. They can print 
out the objects themselves. If they don't have access to a 
printer, there are internet sites now where you send these 
files to a company and they will print it out for you.
    Mr. Massie. All right. Are there any----
    Dr. Clough. So we are making this available for free.
    Mr. Massie. Are there any restrictions on the use of 
those----
    Dr. Clough. No.
    Mr. Massie. --data?
    Dr. Clough. None whatsoever.
    Mr. Massie. So they can show up in a movie and be used 
there as well?
    Dr. Clough. Presumably. We have to be a little careful.
    Mr. Massie. Okay.
    Dr. Clough. I will say that, as I showed several Members of 
the Committee, we had this conference and they had 
demonstration technology there, one piece of which was they 
would take an image of anything within this cage, which 
happened to be, in one instance, me. And so I was imaged and 
the next day they presented me with a seven-inch-high model of 
myself, which my wife says is weird.
    Mr. Massie. Yes. I have got another question while we are 
talking about archiving into shapes. You know, it used to be 
popular to go out and shoot rare animals and stuff them. Is 
there any sort of contemporary version of that where we are 
cataloging DNA of existing species, for instance?
    Dr. Johnson. Yes. One of the things we have realized is 
that every organism has an amazing amount of information in its 
genetic code, so every single organism is a unique example of 
life on the planet. And the best way to preserve that is to 
freeze it at very cold temperatures. And we have built in 
Suitland, Maryland, a frozen repository with 5 million slots. 
We use both nitrogen and deep cold freezers to preserve tissue 
samples of objects that we have the body of the object in the 
museum. So we have both the actual physical entity and the 
frozen tissue from which we can extract genetic information and 
genomic information. So we are realizing that a museum of the 
21st century preserves both the body and the genetic 
components.
    Mr. Massie. Along those lines, I think in other countries 
there is an effort to archive seeds sort of to preserve at 
least the genetic diversity that we have among our agricultural 
crops and the opportunities to grow that. And those are always 
at risk because these things propagate on their own through 
pollen and through the wind. Do we have any sort of seed 
archive at the Smithsonian?
    Dr. Johnson. Yes. We do not have a seed bank. We do keep a 
number of animal gametes at the Smithsonian Conservation 
Biology Institute so the fertile parts of rare and endangered 
species that we are breeding right now, we keep their gametes 
frozen. So that is effectively the seed of the animal if you 
will. And we are breeding things like cheetahs and black-footed 
ferrets and maned wolves. So rare and endangered animals, we 
will preserve their reproductive output.
    Mr. Massie. Great. I just have one other question on 
climate change. What percent of your budget is devoted to 
studying climate change or archiving that in sort of the 
contemporary debate right now over whether man is having an 
effect on that and to what degree?
    Dr. Clough. I don't think we know the percentage as you 
describe it. The Smithsonian does a lot of research that 
relates to climate change. It is not directly focused on that. 
For example, we study bird migration patterns at the National 
Zoo. We know that bird migration patterns are changing because 
the climate is changing, but we have studied bird migration 
patterns and birds for other reasons than just that. There are 
many areas where we are actually doing work that relates to and 
illustrates climate change. We look at the acidification of 
oceans because we study reefs, and acidification of oceans 
affects reefs and it has something to do with the chemicals of 
the greenhouse gases that are in the atmosphere. So we do a lot 
of work that touches on climate change but is not necessarily 
directed at the singular issue by itself.
    Mr. Massie. Thank you very much. My time is expired.
    Chairman Bucshon. I now recognize Ms. Kelly for her 
questions.
    Ms. Kelly. Thank you, Mr. Chair, and thank you for being 
here.
    Under your leadership, Dr. Clough, the Smithsonian named 
Claudine Brown as its first Director of Education, now the 
Assistant Secretary for Education and Access. We have all heard 
the latest statistics from the Program for International 
Student Assessment finding that American students are lagging 
further and further behind their international counterparts in 
math and science, scoring average to below average in the 
subjects. Unfortunately, these scores are even lower on average 
for minority students in communities with limited access to the 
kinds of advanced technology found in many higher achieving 
school districts and classrooms. Can you talk more about your 
efforts to broaden participation? And beyond counting the 
number of students your programs touch, how do you measure the 
impact on the students who go through these programs?
    Dr. Clough. That is an excellent question. Dr. Brown has 
been essential to the work that we have been doing. We didn't 
have that position before. And many of our museums, as Kirk 
described, have wonderful education programs but we wanted to 
coordinate them and use them in some capacity so more people 
can access the broadness and pick and choose what they need. 
What we have learned from teachers, for example, is they don't 
want our lesson plans per se. They would prefer us to provide 
them with a framework in which they can fill in and paint the 
palette, if you will, for their local communities, and so we 
have tried to work with them on that kind of concept.
    I think what we have tried to do is to take the multiple 
approach of there are places where boots on the ground are 
essential and we can help teachers teach science better. But 
many teachers, as you know, are not necessarily credentialed in 
science, and so we try to help teachers get over that hump of 
being afraid of the subject that they have to teach. They have 
no choice but to teach it. So we have worked at this now for 20 
years and we have gotten very good at it.
    Claudine's group also is working very closely with our 
affiliate museums to give them options for access to our 
materials. For example, in the sciences we have about 50 of our 
affiliates--and the Burke Museum of Natural History and Culture 
in Seattle, Washington just signed up, as a matter of fact, as 
one of our affiliates--that are science museums, or research 
centers. So recently, we got a grant from the Gates Foundation 
and we created an option for our students to go to the 
Smithsonian Astrophysical Observatory and use their telescope 
and talk to our scientists and to their educators and learn 
about the universe by actually talking to experts. So active 
learning, we think, is a real key to what to do.
    We are also very grateful to the Gates Foundation for 
having given us a $30 million grant for an endowment called 
Reaching New Audiences. It is a competitive grant process, and 
all of our museums apply and they have to come up with really 
good ideas to reach audiences we traditionally have not reached 
very well. And that is now in its third year. We have now given 
out $5 million. It is an endowment that we spend to reach new 
audiences and we are really learning a lot about that. And 
educators from NSF and others now are joining us in these 
efforts. It is a collaborative effort and it is exciting what 
we are seeing.
    Ms. Kelly. Wow, that is fantastic. Also you mentioned in 
your testimony that the Smithsonian Science Education Center 
launched its new Workforce Development Initiative. And I am 
just curious, why is that under the scope of the Smithsonian to 
concentrate on workforce issues and how does that fit with your 
mission?
    Dr. Clough. Well, there has been an interesting thing 
because I came out of the university world and I was used to a 
little more traditional age group in terms of the group you are 
targeting for education. The Smithsonian, we like to say, 
starts with 2-year-olds and goes to 92-year-olds. So we have a 
lot of experience in educating people who are nontraditional 
learners, who are lifelong learners, who are curiosity-based 
liners, and adult learners. And we like to work with families, 
if we can because that is also very helpful as well. But we are 
learning from the Department of Labor, and from the Department 
of Commerce. We work closely with the Patent Trademark Office 
in the Department of Commerce--there is a big gap in terms of 
workforce training. We won't do all of that but there are 
places where our digital badging program will be perfect for 
some of the material that we teach to late-grade students and 
others to help people get literacy and understand what they 
need for scientific literacy to do their work.
    Ms. Kelly. Thank you. I yield back.
    Chairman Bucshon. Thank you very much.
    I now recognize Mr. Hultgren, five minutes.
    Mr. Hultgren. Thank you, Mr. Chairman. Thank you all so 
much for being here. Thank you for your great work.
    I do think it is so important for us as a Committee and as 
Members of Congress to be having this conversation, and I 
believe so strongly in our museums. We had a very interesting 
hearing last week about STEM education and specifically how do 
we inspire young people to get engaged in science and 
technology and engineering and mathematics, a very good hearing 
but so much more work that we need to do.
    One of the things that really does bring us together as 
Members of the House and Senate, Republicans and Democrats, is 
a need in our Nation to be recommitted to STEM education. And I 
see museums as a key part of that. So thank you for your work.
    I also want to say I thank you for your recognition of the 
young man Jack Andraka who invented the pancreatic cancer test 
strip. I got to meet him at Ideas Week in Chicago a year ago, 
so impressive, so energetic. But that is what it is all about 
is getting young people excited and seeing that there is no 
barriers really at that age to have a passion and pursue it. 
And that is what is so exciting to me. So thank you. Thank you 
for your work. This is so important for us to discuss this so 
that we can prioritize with limited resources, prioritize 
funding and also make sure that we are not wasting and doing 
duplicative type programs.
    I do want to focus a little bit on something that does 
concern me a little bit or I have heard some concern for some 
of my local museums. When the Administration decided to 
reorganize how STEM education was handled at the federal level, 
there were many in the stakeholder community who seemed taken 
by surprise with the proposal that they were not consulted 
about.
    Dr. Clough, I wonder, the President's Fiscal Year 2014 
budget included an additional $25 million for the Smithsonian 
to become the lead agency for informed--to inform STEM 
education. Many in the informal education community that I have 
been in touch with in Illinois are concerned about this, 
especially since your organization cannot make external grants. 
I wondered what role you played in developing this new role for 
the Smithsonian, how you have responded to concerns from the 
STEM education community, and what I can take back to my local 
institutions?
    Dr. Clough. We did not have any role in formulating the 
plan. We heard about it rather late in the process, unlike 
most. Basically, when we got our passback we learned that there 
was an effort to do this. Obviously, we had concerns ourselves 
when we first heard about it because many of the agencies that 
were going to lose some of their capacity, we work with them. 
And in some cases they fund us. And so, in the Air and Space 
Museum we work with NASA in space education and HIH and so 
forth. So we wanted to talk to our friends and try to 
understand what we could do, and if the plan were to go 
through, we wanted to make it one where we helped them in any 
way.
    We felt, for example, if we were going to go through with 
this, that maybe two or three NASA educators will come to the 
museum and in essence be surrogates for NASA in our programs so 
they could help make sure we were doing the right thing on 
their behalf. I think what we learned out of this and the whole 
effort eventually moved on, but we had a number of meetings 
that were very useful. It was an odd sort of process and it 
happened rather quickly, but it really brought all of us 
together in the STEM education field and we started talking and 
we found out places where we were doing things that others 
weren't doing and places where others were doing things we 
weren't doing and we created some really remarkable new 
collaborations out of that.
    For example, I mentioned digital badging. It happened to be 
something that we have been very aggressive about with funding 
from the MacArthur foundation, and so we were able to share 
what we were doing in digital badging and now we have little 
groups coming together to talk about digital badging where we 
are sharing our insights about that. And so in a way it had 
this odd sort of positive benefit at the end of the day.
    Now, as far as the other museums are concerned, obviously, 
we are the Nation's museum and we try to make a point about 
that. That is why we have 184 affiliate museums. So we have 
museums all over the country, many of which happen to be 
science museums. And we share everything we have. Our goal is, 
as soon as we do something, share it. As I mentioned with 
Colorful Cosmos was an unusual case where we did issue a sub-
awards. We used the Gates Foundation money that I mentioned 
earlier and we provided that to the regional museums that 
didn't have a lot of money. We would award them $2,500 so they 
could advertise it thoroughly through their local schools and 
get as many young people as possible engaged in this great 
opportunity to work with our scientists at SAO. So we try to 
work very collaboratively with everyone wherever we go.
    Mr. Hultgren. Let me follow up on this real quick. My 
understanding is you can't make external grants specifically 
with your resources that you have been given. How is the 
institution able to partner with private sector organizations? 
You have talked to about a little bit, I guess, with the Gates 
but also just--if you can further on that a little bit more of 
any other STEM education-related research or programs that you 
see moving forward again that could provide hope and 
encouragement? Maybe that has already been presented to a lot 
of these institutions, but I have heard some concern I know 
from some great institutions in the Chicago area.
    Dr. Clough. A good example of that was the innovation grant 
from the Department of Education. It is very competitive to get 
in the game and we were, because of our experience, chosen to 
go forward with that effort. The Department of Education gave 
us $25 million but we had to raise $8 million privately. And 
the idea is to engage the corporate community in the project so 
they get, if you will, skin in the game in their schools and so 
we leverage federal dollars with private dollars to make this 
work.
    I mentioned we are in Denver and it partly started when 
Kirk was still out in Denver and we visited out there. We have 
four affiliates in the Denver area of our museum. We worked 
very collaboratively with those four museums. The Science and 
Nature Museum is one of those. That effort is being entirely 
funded by the corporate community because they love what we are 
doing in our laser program, the one I mentioned, and they are 
more than willing to fund us to do this. And so in that case it 
happens to be almost a totally privately funded effort but we 
are doing it in total collaboration with the local museums. In 
fact, the head of the Denver Museum is our champion in Denver 
to get that done.
    Mr. Hultgren. My time is past expired. Thank you very much. 
I appreciate it and yield back, Chairman.
    Chairman Bucshon. Thank you very much.
    I recognize Mr. Collins, five minutes.
    Mr. Collins. Thank you, Mr. Chairman.
    You know, I love your museums. I used to come down here in 
another life and I would always come down the night before and 
pick one of your museums to go to. So I am going to ask you a 
tough question so I want to set the stage. I love museums. I 
love what you do. I am a collector of a number of things. And 
so here is my question. When I was the county executive of Erie 
County, New York, largest upstate county. If you know our 
history, 1901 Pan Am Exposition, one of the wealthiest cities 
in the United States at the turn of the last century, now the 
third-poorest in the United States, but because of that 
history, we have one of the most magnificent science museums, 
one of the first in the country. We have a wonderful historical 
society. We have got one of the greatest rare books collections 
anywhere in the world. And, Dr. Johnson, we are home to the 
Penn Dixie paleontology site. I don't know if you visit us but 
that is well known.
    So here is my issue. As county executive, we provided 
millions of dollars of funding to each of these institutions, 
and I remember a tour of the science museum and they display 
about two percent of what they have. When I went into one room, 
honest to God, they had 1,000 spears, from hundreds of years 
ago and 10,000 arrowheads. And I am pragmatic to a fault. I 
know I am. It is dollars and cents. But in this day, as Dr. 
Johnson said, funding for these museums is difficult, 
especially at the community level. What is your opinion of 
deaccessions and if I have got 10,000 arrowheads and I got to 
store them, selling 8,000 of them and--you know, you could 
raise big--I am not talking about selling the Hope Diamond 
although I would wonder what that might bring. It might dent 
our national debt.
    But could you just, you know, for a local museum and local 
people, no one ever wants to give anything back, but let's face 
it, many of them have so much stuff they have got to pay and--
just kind of interested in your opinion, not at your level but 
more at the local level?
    Dr. Johnson. Yes. I think one of the important things to 
think about collections are many things and many of them formed 
in the late 1800s or early 1900s and we have got a lot of 
legacy collections out there. Museums that are well run do a 
fair amount of collections planning and collections 
improvement, and improvement includes both adding things to the 
collection but also removing things from the collections that 
are no longer useful or needed. It is a tricky business, and in 
some cases, things like rare and endangered species or Native 
American artifacts, it is very difficult to ethically dispose 
of them. So you might think this is no longer needed but what 
is the right step to deaccession it and then remove it to a 
different place ethically? Often, we find it takes more money 
to deaccession something than is available. So it is not a 
simple solution. There have been many museums who thought they 
could get out of the business of being museums and find that it 
actually costs more to get out of the business than it does to 
stay in the business.
    So it is a challenge but there has been a growing trend and 
we are one of the leaders in the trend of careful collections 
planning with the intent of collections improvement because 
collections must be used to be housed in the collections arena. 
And we have done a lot of good work with that here because it 
is not just the condition of the collection; it is what their 
intellectual value is. Is it something that we need to keep? Is 
there a reason for society to keep these objects in the public 
trust? So a very hot topic in museology right now.
    Dr. Pell. I will just add to that. You are talking about 
arrowheads, which are pretty small. Well, we have some very 
large things in our collection, too. We have aircraft, many of 
them, and storing them is a huge challenge for us. And General 
Dailey, who is the Director of the Air and Space Museum is very 
carefully and from time to time deaccessioning some of our 
aircraft to other aircraft museums around the country. So there 
are times when it is appropriate to deaccession, especially if 
we know that we can then make that artifact more available to 
more people.
    Dr. Clough. I would just add one more thing to this. The 
opportune time to really make decisions about some of these 
things is when you are doing some major overhaul to a 
collection center. And we have military history uniforms at the 
Smithsonian in the American History Museum, and recently, we 
were fortunate to really go after that collection center and 
update it and upgrade it. And it turned out we had many 
duplicates of those uniforms and there was no reason for us to 
have those. And as you know, there are many military museums 
around the country. And so we deaccession by giving them to 
other museums that had a case for those objects.
    Mr. Collins. Well, I appreciate that. I can tell you when I 
mentioned that at a board meeting, there was a hush in the room 
that is even hard to describe when I thought of doing it, not 
to give it to another museum but to sell it for money to help 
fund the operations. It didn't go over real well. But, in this 
day and age you have got to consider things. And as you said, 
whether it is uniforms or other objects, there is a value there 
and so forth.
    Well, again, my time is expired but thank you for letting 
us enjoy your exhibits today, and again, I am a big fan of 
yours and thank you for all you do.
    Dr. Johnson. Thank you.
    Chairman Bucshon. Well, thank you very much to all the 
witnesses. It has been fascinating testimony. Thanks for 
bringing the scientists, for bringing all of your objects from 
the Smithsonian. We have a nice military museum, by the way, in 
Vincennes, Indiana, and a private guy would appreciate a few 
planes if you are getting rid of any of them. This is a guy who 
actually started a collection when he was in high school and 
now he is probably in his late 60s; over the years he has 
collected--and he of course travels the country meeting all 
kinds of people and people give him planes because they know 
him. It is fascinating.
    The record will remain open for two weeks for additional 
comments and written questions from the Members. At this point 
the witnesses are excused and the hearing is adjourned.
    [Whereupon, at 3:30 p.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Dr. G. Wayne Clough
[GRAPHIC] [TIFF OMITTED] 86899.049

Responses by Dr. Eva J. Pell
[GRAPHIC] [TIFF OMITTED] 86899.050

Responses by Dr. Kirk Johnson
[GRAPHIC] [TIFF OMITTED] 86899.051

                              Appendix II

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

 Submitted statement of Representative Eddie Bernice Johnson, Ranking 
          Member, Committee on Science, Space, and Technology

    Good afternoon, I would like to thank the Chairman for holding 
today's hearing to explore the scientific research the Smithsonian is 
undertaking.
    The Smithsonian was established from a bequest of more than 
$500,000 from a British scientist who never set foot on American soil. 
While he never wrote about his motivation of giving the money to the 
US, some speculate that he was inspired by the United States' 
experiment with democracy, as well as his own philanthropic ideals. He 
gave this gift to found an institution for the ``increase and diffusion 
of knowledge.'' From that initial gift over 160 years ago, this country 
has continued to fund the Smithsonian which has become as much of a 
national treasure as any other monument on the National Mall.
    It is easy to see how kids can be inspired to run home and look for 
fossils in their backyards or try to identity the constellations in the 
night sky after walking through the halls of any one of the 
Smithsonian's museums. We only have to look at the latest student 
assessment statistics to understand that our students are falling 
further behind their international counterparts in science and math. 
American competitiveness depends on our students' ability to meet the 
science and technology needs of the not so distant future. The 
Smithsonian's role in informal education is one that very much gives 
students a hands-on experience for those subjects they learn in their 
classrooms, enhancing their overall learning experience. Making STEM 
education a positive learning experience is very important, and making 
more STEM education programs accessible in communities that are 
underrepresented in the STEM career fields is essential for our 
nation's competitiveness.
    I am eager to hear the status of the Smithsonian's role as the lead 
agency on informal education and outreach as outlined in the 
Administration's fiscal year 2014 proposed STEM education 
reorganization.
    In addition to the Smithsonian's administration of STEM programs, 
it leads large-scale, worldwide research and curates and manages 
scientific collections used not only by Smithsonian scientists but also 
federal agencies. I congratulate Dr. Clough and Dr. Pell on their work, 
and wish them well as they move on to future endeavors. I look forward 
to a smooth transition in leadership and continuation of the important 
research and education work done at the Smithsonian.
    Again, I thank the witnesses for being here today and look forward 
to their testimony. I yield the balance of my time.

                                 <all>

</pre></body></html>
